             Peace Corps
             Office of Inspector General




PC/Suriname office in Paramaribo               A Volunteer’s Home on the Upper Suriname River




                                   Flag of Suriname




                         Final Audit Report:
                        Peace Corps/Suriname
                                                             May 2010
                               EXECUTIVE SUMMARY

We found that Peace Corps/Suriname’s financial and administrative operations and its
compliance with agency policies and federal regulations needed improvement. We noted
deficiencies in three of the five internal control standards of the Government
Accountability Office: standards requiring a control environment, control activities, and
effective monitoring. Some of the more important findings are summarized below.

Imprest Fund Management
Imprest fund oversight by post management was inadequate. Most imprest fund
verifications in fiscal years 2008 and 2009 were performed at or around the end of the
month, rather than at varying times during the month. In addition, the country director
did not perform one required quarterly verification, and for one month, no verification
was performed. Further, the verifications did not include a complete review of
reconciling documents and their proper recording on the cash reconciliation statement.
Timely and complete verifications are an essential internal control over the post’s most
liquid asset.

Volunteer Allowances
Volunteers were not always paid their living and settling-in allowances on time, due to
the late arrival of the allowance checks. Also, a one-week emergency living allowance
advance to Volunteers was not deducted from the Volunteers’ subsequent living
allowance payments. In addition, while the survey data resulting from the post’s 2008
settling-in allowance survey was compiled on a spreadsheet, the post’s files had no
analysis of the results nor conclusion regarding the allowance’s adequacy. Moreover, an
independent price survey was not performed. The above conditions are significant since
Volunteers depend on timely and adequate allowances for their health and well-being. In
addition, the post did not have a memorandum of agreement with the bank handling
Volunteer allowances, establishing and documenting the bank’s requirements and
responsibilities.

Billings and Collections
The post did not track and bill for personal usage of office landline phones; the phone
company’s bills did not provide phone number detail. The billing officer did not retain a
copy of the bill of collection (BOC) nor receive a copy of the general receipt, to monitor
the status of billings and follow up as needed. The administrative officer did not review
the BOC log, and the log’s descriptions were not always sufficiently explanatory to
permit an informed review.

Obligations and Liquidations
The post did not always record the obligation at the time the contract or debt was
established.




Final Audit Report: Peace Corps/Suriname                                                     i
Property Management
Controls and procedures over property inventory were deficient, and the post’s property
inventory database contained numerous discrepancies. The same person maintained the
post’s property database and performed the physical inventory verification. Further, the
database was not updated for changes, including the refresh of computer equipment in
January 2009. Also, required periodic reconciliations by the property control officer and
the administrative officer were not performed. In addition, custody receipts were not
obtained for property held in the U.S. direct hire residences, and were not consistently
obtained for property held by Volunteers.

Vehicles Management
The vehicle usage logs were not reviewed, initialed, and dated by all required individuals,
to verify that the post’s vehicles were being appropriately used. Further, the logs
contained discrepancies. In addition, several authorizations for home-to-office use of
post vehicles were given orally and documented at a later date.

Personnel Management
Personal services contractors (PSCs) were not always paid on time, due to the late arrival
of the checks. Further, PSCs’ timesheets were not always submitted timely and did not
always indicate the extra hours worked that resulted in compensatory time. Moreover,
supervisors did not periodically review the official time and attendance records, which
contained discrepancies. Also, several staff members exceeded the post’s 24-hour
compensatory time maximum carryover.

Travel Management
Staff did not always submit their international travel vouchers within five days after the
trip’s completion. Also, several international travel vouchers contained discrepancies,
and for one travel voucher, the date signed as reviewed was earlier than the date signed
by the traveler.

File Management
The post’s files contained administrative, program, and Volunteer documents dating back
to the inception of the program in 1995. Not adhering to agency file retention guidelines
impedes efficient file management and the effective use of the post’s office space.

Procurement
One residential lease specified an incorrect lease period. Further, several lease option
renewals stated that this was the final option, when it was not, and certificates of
acceptance were not always completed. Some statements of work were either missing
from the PSCs’ files or not included with the actual contracts. Also, one staff member’s
security clearance update could not be located, and a PSC’s new contract contained only
the first two pages rather than the complete contract along with the statement of work.

Medical Supplies
The post did not implement the agency’s medical supplies policy. Contrary to policy, the
Peace Corps Medical Officer (PCMO) maintained all medical supplies inventory records.
Further, the medical assistant performed the physical inventory of drugs of a “specially


Final Audit Report: Peace Corps/Suriname                                                      ii
designated” nature, which should have been handled by a person outside the medical unit,
but was not. Moreover, a physical inventory of controlled substances was not performed
by the country director for one quarter. In addition, the medical assistant rather than a
person from outside the medical unit opened, in the presence of the PCMO, medical
supply receipts at the post. Further, the PCMO did not use the required dispensed
medical supplies form. Additionally, the country director did not submit on an annual
basis the medical inventory control log to Office of Medical Services (OMS). Finally, we
found discrepancies, in quantities and expiration dates, between our test counts and the
medical supplies inventory records.

The post’s narrative to its fiscal year 2010-2012 Integrated Planning and Budgeting
System (IPBS) report submitted to headquarters, states as a goal “Improved
administrative management” and includes a number of objectives which would help
resolve many of the issues noted above.

Appendix B includes comments from post staff and Volunteers interviewed. Our report
contains 61 recommendations, which, if implemented, should strengthen internal controls
and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Suriname                                                    iii
                                                             Table of Contents

EXECUTIVE SUMMARY....................................................................................................... i

INTRODUCTION ................................................................................................................... 1

AUDIT RESULTS ................................................................................................................... 1

A. ASSESSMENT OF INTERNAL CONTROL .............................................................................................................. 2

B. IMPREST FUND MANAGEMENT ......................................................................................................................... 3

C. VOLUNTEER ALLOWANCES .............................................................................................................................. 6

D. BILLINGS AND COLLECTIONS ........................................................................................................................... 8

E. OBLIGATIONS AND LIQUIDATIONS .................................................................................................................. 10

F. PROPERTY MANAGEMENT .............................................................................................................................. 11

G. VEHICLES MANAGEMENT .............................................................................................................................. 15

H. PERSONNEL MANAGEMENT............................................................................................................................ 17

I. TRAVEL MANAGEMENT ................................................................................................................................... 19

J. FILES MANAGEMENT ....................................................................................................................................... 20

K. PROCUREMENT ............................................................................................................................................... 21

L. MEDICAL SUPPLIES......................................................................................................................................... 22


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ............................. 25

POST STAFFING .................................................................................................................. 26

LIST OF RECOMMENDATIONS ....................................................................................... 27

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: AUDIT COMPLETION AND OIG CONTACT
                                      INTRODUCTION
The Office of Inspector General conducted an audit of Peace Corps/Suriname October
6 - 30, 2009. We previously performed an inspection of the post in 1999 (IG-99-12-2,
“Final Report on Inspection of Peace Corps/Suriname” issued March 2000).

The Peace Corps commenced its program in Suriname in 1995. Since then,
approximately 360 Volunteers have served there. At the time of our visit, 39 Volunteers
were engaged in two project areas: community health education, and micro-enterprise
and tourism development. The country director arrived at the post in January 2007, and
the administrative officer arrived in mid-March 2009. Between August 2008 and March
2009, the financial assistant served as acting administrative officer.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a
full description of our audit objective, scope, and methodology.


                                     AUDIT RESULTS
We found that Peace Corps/Suriname’s financial and administrative operations needed
improvement and did not fully comply with agency policies and federal regulations.

For example, we found that the post did not:

    •   Maintain an adequate system of internal control designed to prevent and detect
        waste, fraud, and abuse.
    •   Exercise appropriate managerial oversight over the imprest fund.
    •   Pay its Volunteers and its personal services contractors (PSCs) on time because of
        the late arrival of their checks.
    •   Conduct proper settling-in allowance surveys.
    •   Always record an obligation at the time the contract or other commitment was
        established.
    •   Track personal usage of office phones, and bill and collect from staff.
    •   Establish adequate internal controls over property inventory and maintain
        accurate property inventory records.
    •   Perform weekly reviews of vehicle usage logs by all required persons.
    •   Keep accurate official time and attendance records and ensure their periodic
        supervisory review.
    •   Prepare and maintain complete and accurate lease and PSC documentation.



Final Audit Report: Peace Corps/Suriname                                                  1
    •   Implement the agency’s policy on medical supplies and keep accurate inventory
        records.

Since her arrival in March 2009, the administrative officer has initiated actions to address
many of these areas, including the hiring in September 2009 of a general services
coordinator with responsibility for, among other things, property inventory control. The
country director and the administrative officer are aware that corrective actions are
required in the above and other areas.


A. ASSESSMENT OF INTERNAL CONTROL

1. Internal control at the post was deficient.

“Standards for Internal Control in the Federal Government” issued by the Government
Accountability Office (hereafter, GAO Standards) stipulates five standards which “define
the minimum level of quality acceptable for internal control in government….These
standards apply to all aspects of an agency’s operations: programmatic, financial, and
compliance.”

Peace Corps Manual (PCM) section 784.3.0 reinforces the GAO requirement for
adequate and effective internal control, as follows:
        Internal control should be an integral part of the entire cycle of planning,
        budgeting, management, accounting and program execution. Internal
        control applies to program, operational and administrative areas as well
        as accounting and financial management. Monitoring the effectiveness of
        internal control should occur in the normal course of business.

We found weaknesses in compliance with three of the five control standards:

    •   Control environment, which requires “a positive and supportive attitude toward
        internal control and conscientious management.”
    •   Control activities, which are “the policies, procedures, techniques, and
        mechanisms that enforce management’s directives…. They include a wide range
        of diverse activities such as approvals, authorizations, verifications,
        reconciliations, performance reviews, maintenance of security, and the creation
        and maintenance of related records,…physical control over vulnerable assets, and
        segregation of duties….”
    •   Monitoring, which states that “ongoing monitoring occurs in the course of normal
        operations. It includes regular management and supervisory activities….”

The post’s non-compliance with the above internal control standards was an underlying
cause for many findings in this report.




Final Audit Report: Peace Corps/Suriname                                                   2
Adequate internal control, according to the GAO Standards, “serves as the first line of
defense in safeguarding assets and preventing and detecting errors and fraud.” Having
strong internal controls in place, including implementing proactive supervision and
oversight, would strengthen post operations.


                 We recommend:

                 A.1.1 That the country director strengthen the post’s
                       internal control environment, activities, and
                       monitoring in a manner that will safeguard assets
                       and prevent and detect waste, fraud, and abuse.

                 A.1.2 That the country director describe the actions taken
                       to achieve the control standards described in A.1 in
                       a report to the regional director and the agency’s
                       chief compliance officer.


B. IMPREST FUND MANAGEMENT

1. Post management’s oversight of the imprest fund was inadequate.

Overseas Financial Management Handbook (OFMH) section 13.2.1 states: “The Country
Director, as the Post Manager, has responsibility for imprest management because of the
use of cash and the consequent potential for internal control problems.”

The policy enumerates specific responsibilities of the country director, which include
“ensuring that an unannounced, monthly verification of the imprest fund is conducted
…. It should be conducted quarterly by the Country Director, and in the remaining
months it may be delegated to the Administrative Officer.”

OFMH section 13.24.1 states: The verifications must be unannounced and performed
at different times each month, e.g., they should not be done on the last day of every
month….The verification includes a complete reconciliation, with a cash count and
verification of supporting documents for all balances on the 365 (line by line) and
completion of the Checklist for Verifying Officers.”

Managerial oversight of the imprest fund during the period under audit was inadequate,
as follows:

•   17 of 23 monthly and quarterly imprest fund verifications in fiscal years (FY) 2008
    and 2009 were performed at or within three days of the end of the month rather than
    at different times each month.




Final Audit Report: Peace Corps/Suriname                                                  3
•   The country director did not perform a quarterly verification between December 28,
    2007 and May 30, 2008. All the verifications were done by the administrative officer
    during this period.

•   No imprest fund verification was performed in July 2008.

•   Verifications did not include a complete review of reconciling documents and their
    proper recording on the cash reconciliation statement.

Appropriate managerial oversight of the imprest fund is essential to protect the post’s
most liquid asset from waste, fraud, and abuse.


                 We recommend:

                 B.1.1 That the country director ensure that imprest fund
                       verifications are performed quarterly by the country
                       director and in other months by the administrative
                       officer.

                 B.1.2 That the country director and the administrative
                       officer vary the timing each month of their imprest
                       fund verifications.

                 B.1.3 That the country director and the administrative
                       officer perform imprest fund verifications with a
                       cash count and review of supporting documents for
                       all balances.


2. The cashier did not change the combination to the imprest fund safe.

Peace Corps Manual (PCM) section 760.5.2 states: "The cashier must personally set the
combination to the safe. The Embassy Regional Security Officer (RSO) or technician
assisting with the changing of the combination is not authorized to set or know the
combination to the safe.”

The policy reflects the cashier’s responsibility for safeguarding the imprest fund and her
personal accountability for its contents.

The Regional Security Officer (RSO), rather than the cashier, changed the combination to
the imprest fund safe. It was last done in August 2009. The cashier told us that she was
not trained how to do it.

In a meeting with the RSO and the administrative officer, the RSO stated that the
cashier’s safe was old and its combination was difficult to change. After examining the


Final Audit Report: Peace Corps/Suriname                                                     4
newer safe of the alternate cashier, who did not maintain a separate fund, the RSO
recommended that the post switch the safes of the cashier and the alternate cashier.

Subsequent to the audit, the administrative officer confirmed to us that the safes were
switched and that the RSO trained the cashier to change the safe’s combination.


                 B.2.1 That the cashier change the imprest fund safe
                       combination annually, when there is a change in
                       cashiers, or whenever the combination becomes
                       known to a person other than the cashier.


3. The staff did not always clear their interim cash advances within three working days.

OFMH section 13.18.2 requires that interim cash advances be “liquidated (accounted for)
within three (3) working days.” The policy further states: “It is the responsibility of the
cashier to monitor the clearance of interim advances and to notify the Administrative
Officer if advances are not cleared within 3 days for direct follow-up action.”

Staff did not consistently clear their interim cash advances within three working days.
Moreover, the post’s Monthly Checklist for Verifying Officer, which accompanies the
cash reconciliation statement, incorrectly stated that “for Suriname it is done within five
working days.” The cashier corrected this during the course of the audit.

Clearing interim cash advances within three working days strengthens control over the
imprest fund and permits a timely accounting for the advances.


                 We recommend:

                 B.3.1 That post staff clear their interim cash advances
                       within three working days.

                 B.3.2 That the cashier monitor the status of interim
                       advances and notify the administrative officer if
                       advances are not being cleared within three days.

                 B.3.3 That the administrative officer monitor the status of
                       outstanding interim advances in order to ensure that
                       they are cleared within the required time period.




Final Audit Report: Peace Corps/Suriname                                                      5
C. VOLUNTEER ALLOWANCES

1. Volunteers did not always receive their living and settling-in allowances on time.

OFMH section 2.2 states that, for settling-in allowances: “Payments, in local currency,
are normally made at the end of PST….” Timeliness is also important for living
allowance payments to Volunteers so that, according to PCM section 221.5.1, “they may
serve effectively and safely overseas.” In the case of Suriname, timeliness is critical as
most Volunteers travel to the capital, where the banks are located, to retrieve their
allowances and the funds should be in their accounts when they arrive.

Volunteers did not receive their living and settling-in allowances in a timely manner due
to the late arrival of the related checks, as follows:

•   New Volunteers did not receive their settling-in and initial living allowances when
    they swore in, so they could shop for furniture and supplies and proceed expeditiously
    to their sites. The post requested the settling-in allowance funds on July 2, 2009 and
    the living allowance funds on July 14, 2009. This was an insufficient lead time given
    the post’s experience that checks take on average two to three weeks, and
    occasionally longer, for processing. As a result of the late arrival of these checks, the
    new Volunteers were required to remain in the capital for about a week longer than
    anticipated, incurring hotel and per diem charges approximating SRD 5,000
    (US$1,785) as a result.

•   Volunteers did not receive their June – August 2009 living allowances on time. The
    post requested the check on May 14, which was an insufficient lead time. The
    Volunteers were, as a result, provided a one-week emergency living allowance
    payment in late May 2009 of SRD 4,851.35 (US$1,732.62), which was to be
    deducted from a subsequent living allowance.

We found that the one week emergency living allowance was not deducted from either
the June – August 2009 or the September – November 2009 living allowance payments to
Volunteers. The administrative officer thought that it had been deducted from the
September – November 2009 living allowance, but the post’s documents indicated that it
had not. The administrative officer told us that the emergency payment would be
deducted from the December 2009 – February 2010 living allowance and subsequent to
the audit, confirmed to us that the deduction had been made.

Volunteers depend on the allowances for their health and well-being, making timeliness
essential.




Final Audit Report: Peace Corps/Suriname                                                     6
                 We recommend:

                 C.1.1 That the post request living and settling-in
                       allowance checks with sufficient lead time to permit
                       the allowances’ timely payment to Volunteers.

                 C.1.2 That the post, in consultation with the region,
                       perform a review to identify bottlenecks to
                       receiving allowance checks on time and take action
                       to resolve these.

                 C.1.3 That the administrative officer, in conjunction with
                       headquarters and the financial service center,
                       determine if allowance payments may be made by
                       EFT and, if so, implement this payment vehicle.


2. The post did not analyze the settling-in allowance survey results nor perform an
independent price survey.

At the conclusion of pre-service training, newly sworn-in Volunteers are given a settling-
in allowance to provide for their needs when arriving at their sites. PCM section 221.3.1
states that the allowance is for the purchase of “necessary housing supplies and
equipment.”

To verify that the allowance is adequate, PCM section 221.4.2 requires that the post
conduct Volunteer settling-in surveys and related independent price surveys.

The post did not complete its settling-in survey for the Volunteer group that swore in
September 2008. The post distributed the settling-in survey forms to the new Volunteers
and compiled the response data on a spreadsheet. The compilation indicated that, on
average, new Volunteers spent SRD 1,429 (US$510) versus the settling-in amount of
SRD $1,200 (US$429), a 19% difference. However, the post did not analyze the results
and conclude as to the adequacy of the allowance, which was left unchanged. Several
Volunteers told us during interviews that their settling-in allowance was insufficient. In
addition, the post did not perform an independent price survey.

Volunteers rely upon the post to provide them with adequate allowances, which are
mandated by Section 2504 of the Peace Corps Act. Settling-in allowance surveys,
properly conducted, help ensure that the allowance is adequate.

                 We recommend:

                 C.2.1 That the post conduct complete settling-in surveys
                       and conclude as to the allowance’s adequacy.




Final Audit Report: Peace Corps/Suriname                                                 7
                 C.2.2 That the post conduct independent price surveys in
                       conjunction with settling-in allowance surveys to
                       corroborate the results of the settling-in surveys.


3. The post did not have a memorandum of agreement with the bank handling
Volunteer allowances.

PCM section 221.6.1 requires that the post execute a memorandum of agreement (MOA)
with the bank handling Volunteer living allowances, in the form specified by Attachment
D to the policy.

The post did not have an MOA from its bank handling Volunteer allowances. The
administrative officer told us that she intended to request the MOA from the bank.

The MOA clarifies the requirements and responsibilities of the bank in its relationship
with the Peace Corps and helps the post makes certain that it is obtaining all the services
agreed upon.


                 We recommend:

                 C.3.1 That the post execute a memorandum of agreement
                       with the bank handling Volunteer living allowances.


D. BILLINGS AND COLLECTIONS

1. The post did not track and bill for personal phone calls.

PCM section 777.8.0 states: “Debts are incurred through the non-official use of
Government-owned transportation, communication facilities or living accommodations,
loss of funds, loss or damage to government-owned equipment, property, etc.” PCM
section 777.16.4 states: “An employee indebtedness should be settled promptly.” This
requires that the post maintain a system that tracks and bills the staff for debts, including
personal calls made on post phones.

In addition, OFMH section 7.1.1 states that “…agency policy authorizes CDs to establish
written, post-specific policy, applicable to all staff (including FP, FSN, and PSCs) which
sets a threshold for billing based on a consideration of the costs incurred in the billing and
collection process - i.e., is it cost effective to bill for an amount of less than ‘x’".

The post did not track and bill for personal usage of office phones. The administrative
officer told us that the post’s telecommunications system did not permit phone number
tracking and that the phone company did not provide phone number detail to identify




Final Audit Report: Peace Corps/Suriname                                                        8
personal calls. During the course of the audit, the post installed a new phone system
which is to permit the itemization and tracking of phone calls by extension.

In addition, the post has not determined an amount under which it would not be cost-
effective to bill for phone charges.

Timely billing of staff personal phone charges, along with effective oversight, is essential
to the management of post assets.


                 We recommend:

                 D.1.1 That the billing officer bill staff for personal phone
                       charges.

                 D.1.2 That the country director determine an amount
                       under which it would not be cost-effective to bill
                       staff for personal phone usage.


2. The billing officer did not retain a copy of the bill of collection nor receive a copy of
the general receipt.

OFMH section 7.2.1 states that a copy of the BOC is to be placed in the billing office file.
It further states that the general receipt is also to be placed in the file.

The billing officer did not keep a copy of the bill of collection (BOC) in her files.
Moreover, she did not receive from the collections officer a copy of the general receipt.
These are required in order to monitor the status of billings and facilitate follow-up as
needed. She told us that she monitored the collections status using the outstanding
collections report.

Maintaining billing and collection documents in the billing office files facilitates review
and follow-up as needed to collect the post’s debts.


                 We recommend:

                 D.2.1 That the billings officer maintain copies of bills of
                       collection and general receipts in her files.




Final Audit Report: Peace Corps/Suriname                                                      9
3. The administrative officer did not review the bills of collection log, whose
descriptions were not always in sufficient detail.

OFMH section 7.2.1 provides a listing of the billing procedures including the accurate
preparation of the bill of collection and related documents. An underlying requirement is
that the description of the billing be sufficiently clear to be understood by the debtor and
by others who use the log and follow up deficient collections, and that the BOC log be
periodically by management.

The administrative officer did not review the BOC log on a periodic basis to ensure that
billings and collections were being made timely and posted accurately.

In addition, the BOC log’s descriptions were not always in sufficient detail to permit an
informed review. For example, billings to U.S. direct hire personnel for personal phone
usage at their residences did not indicate the month of the phone bill.

Clear and precise descriptions on BOCs, and managerial review of the BOC log, help
assure that billings accurately reflect the correct items and amounts and that collections
are made in a timely manner


                 We recommend:

                 D.3.1 That the billings officer clearly state the nature of
                       the billings on the bills of collections.

                 D.3.2 That the administrative officer review the BOC log
                       on a regular, periodic basis and follow-up unusual
                       or untimely billings or those outstanding for an
                       extended period of time.


E. OBLIGATIONS AND LIQUIDATIONS

1. The post did not always record obligations in a timely manner.

OFMH section 32.3 states: “An obligation is a firm reservation of funds that creates a
legal liability on the Government for the payment of funds for goods or services
ordered…. The obligation is made using funds available at the time the order is placed or
contract executed, even though payment may take place in a future fiscal year.
Documents used for obligation include contracts, leases, purchase orders, and travel
authorizations.”

On May 12, 2009, the Director of the Office of Acquisitions and Contract Management
(OACM) sent an email to country directors and administrative officers, with copies to
regional management and the acting general counsel, stating that the Office of Global


Final Audit Report: Peace Corps/Suriname                                                     10
Accounts Payable (OGAP) had identified unauthorized commitments. The email stated:
“The unauthorized commitments were identified when invoices were received but no
contract or other valid obligating document had been established. When this occurs, the
commitment is considered unauthorized and the invoice is not paid."

In response to the email, the financial assistant performed a review of post billings and
prepared a spreadsheet “showing the bills we cannot [pay] at the moment, due to the new
rules/instructions from HQ.” Nineteen obligations were listed, most with the explanation
“no money in the existing obligation” or “obligation created after the fact” or “no
individual obligation created yet.”

On May 13, 2009, the administrative officer, who at the time had been at the post about
two months, sent an email to the regional financial management officer and the acting
chief administrative officer stating: "It recently came to my attention that Post has not
been obligating funds at the time a contract is signed....It was procedure at Post to sign
the contract and then obligate right before payment....” Over the next month, the
administrative officer worked with OGAP and OACM to resolve obligations as needed
and to have them processed and paid.

The administrative officer told us that she intends to review the status of obligations on a
regular basis and verify that items are obligated correctly and at the appropriate time.


                 We recommend:

                 E.1.1 That the post record obligations at the time the
                       commitment is made or debt is determined.

                 E.1.2 That the administrative officer review the status of
                       obligations on a regular basis and verify that
                       obligations have been correctly and timely
                       recorded.


F. PROPERTY MANAGEMENT

1. The post’s property inventory database was inadequately maintained and controlled.

PCM section 511.5.5 requires that the post “ensure that all changes [to its property
inventory] have been entered in the property management database.”

The policy also states: “Before beginning inventory, the Property Officer should check
the property management records against written documentation of property/equipment
changes to ensure that all changes have been entered in the property management
database.”




Final Audit Report: Peace Corps/Suriname                                                     11
Further, PCM section 511.6.1 requires that “the Administrative Officer reconcile the
inventory against receiving reports and requisition forms at least once a quarter.”
Additionally, the GAO Standards state: “Key duties or responsibilities need to be divided
or segregated among different people….No one individual should control all key aspects
of a transaction or event.”

The property inventory database was inadequately maintained and controlled, as follows:

•   The same person maintained the database and performed the physical inventory.

•   The database was not updated for changes since the last physical inventory in
    November 2008, including the refresh of computer equipment in January 2009.

•   There was no evidence that the former property control officer reconciled the
    database to ensure that changes were recorded before the November 2008 physical
    inventory was conducted.

•   The administrative officer did not reconcile the inventory against receiving reports
    and requisition forms at least once a quarter.

•   The post maintained inadequate documentation relating to its property disposals by
    auction to permit the updating of the property inventory database.

The lack of continuity in inventory responsibilities at the post likely contributed to some
of the control issues mentioned above. Three persons handled the property inventory
control function in 2009: the administrative assistant until her departure June 1, 2009, the
motor pool specialist for about four months, and the recently-hired general services
coordinator beginning September 27, 2009.

Adequate and properly executed inventory controls and adherence to policy requirements
are essential for effective accountability and oversight over post property.


                 We recommend:

                 F.1.1 That the post maintain an accurate property
                       inventory database including updating the database
                       on a regular basis for changes.

                 F.1.2 That the property control officer reconcile the
                       database with changes to ensure they are recorded
                       before the physical inventory is conducted.

                 F.1.3 That the administrative officer reconcile the
                       inventory against receiving reports and requisition
                       forms at least quarterly.


Final Audit Report: Peace Corps/Suriname                                                   12
                 F.1.4 That different staff members maintain the property
                       inventory database and perform the physical
                       inventory.

                 F.1.5 That the post provide sufficiently detailed
                       information relating to property disposal to permit
                       the updating of the property inventory database.


2. The property inventory database contained numerous discrepancies.

PCM section 511.5.5 requires that the post maintain accurate property inventory records
and “ensure that all changes [to its property inventory] have been entered in the property
management database.”

The post’s property inventory database was supposed to include all inventory for the
office (including technology), the warehouse, and the residences. Our testing of the
inventory records disclosed discrepancies throughout the office. They included incorrect
serial numbers, incorrect tag numbers, multiple tags, no tag, duplicate listings, and items
missing from the database. Deficiencies in the post’s controls and recordkeeping,
described in F.1, did not permit an accounting for the post’s laptop computers. In one
situation, the post’s records showed a staff member to be in the current possession of a
laptop; the person (a long-standing and trusted member of the staff) stated that she had
never had nor used a post laptop.

The IT Specialist (ITS) maintained his own listing of IT items. We found that for a
substantial number of items, the post's inventory database did not agree with the ITS'
listing. The principal reason was that the post’s database was not updated for the
computer refresh in January 2009 while the ITS updated his listing for the refresh.

However, the ITS' listing was not error-free. For example, the scanner located in the
PCMO’s office was recorded neither in the post’s database nor on the ITS’ listing.
Moreover, while the ITS’ listing was the most accurate, it did not indicate location,
making it next to impossible to use as a tool to account for individual pieces of computer
equipment, such as computers, monitors, and printers, in multiple locations.

This situation made the post particularly vulnerable to waste, fraud, and abuse with
respect to its property. Without appropriate controls in place, and without accurate and
reliable inventory data, property could well go missing, inadvertently or advertantly, and
the condition not identified, with a resulting financial loss to the agency.




Final Audit Report: Peace Corps/Suriname                                                 13
                 We recommend:

                 F.2.1 That the post conduct a complete physical inventory
                       and ensure that the property inventory database
                       reflects the current status, location, and condition of
                       all items including the post’s IT equipment.

                 F.2.2 That the post identify items with duplicate
                       inventory tags, incorrect tags, or no tags and take
                       corrective action as needed.

                 F.2.3 That the post develop internal policies and
                       procedures which will provide for ongoing and
                       accurate recordkeeping, effective controls, and
                       managerial oversight over property inventory.


3. The post did not obtain custody receipts for property issued to the U.S. direct hire
staff and to Volunteers.

PCM section 511.6.2.2 requires that custody receipts be issued “when releasing non-
expendable property to Volunteers, staff or contractors to use away from the Peace Corps
office.”

The post did not issue custody receipts for furniture and equipment maintained in the
residences of the U.S. direct hire staff. The administrative officer told us that she
intended to issue these and place them in the administrative files.

In addition, the post did not consistently issue custody receipts to Volunteers for property
provided to them for their use. Volunteers who swore in during 2007 and 2008 received
more property than was listed on the custody receipt forms. Volunteers who swore in
during July 2009, according to the administrative officer, received property from
different sources (safety and security, the medical unit, etc.), and the items were listed on
multiple forms, complicating control. The administrative officer told us that she intends
to implement a single custody receipt form that will include all items issued to the
Volunteers.

Custody receipts are important to document the possession of agency property and the
accountability for maintaining and returning it.


                 We recommend:

                 F.3.1 That the post issue custody receipts for property
                       held in the residences of the U.S. direct hire staff




Final Audit Report: Peace Corps/Suriname                                                   14
                          and place the custody receipts in the administrative
                          files.

                 F.3.2 That the post issue custody receipts for property
                       provided to Volunteers for use during their Peace
                       Corps service and establish an effective control
                       system to track the property.


G. VEHICLES MANAGEMENT

1. All required personnel did not review, initial, and date the vehicle usage logs
weekly; further, some logs contained discrepancies.

PCM section 527.5.4 requires that the administrative officer, the staff member
responsible for initiating vehicle repairs or maintaining the vehicle records, and the staff
member responsible for billing authorized non-official vehicle use review, initial, and
date the vehicle usage logs weekly.

We found that while the administrative officer was reviewing the vehicle usage logs on a
weekly basis, the motor pool specialist and the billing officer were not. We also found
that several logs had not been initialed and dated signifying review.

In addition, we noted discrepancies in the vehicle usage logs, such as: unaccounted-for
kilometers or no ending kilometers, origin or destination information missing, and
postings made in incorrect columns. The discrepancies might have been caught had the
appropriate log reviews occurred.

Complete and reviewed vehicle usage logs are important in ensuring that the post’s
vehicles are being used appropriately.


                 We recommend:

                 G.1.1 That the required staff members review, initial, and
                       date the vehicle usage logs weekly.

                 G.1.2 That staff record all usage of post vehicles in the
                       vehicle usage logs and fully complete the required
                       information.


2. The post did not provide timely written authorizations for home-to-office use of
vehicles.




Final Audit Report: Peace Corps/Suriname                                                   15
PCM section 522.4.2.3 states: “If the Country Director determines that departure from
the employee's residence will allow the employee more working time to conduct Peace
Corps business or will reduce the number of miles a Peace Corps vehicle is driven, the
Country Director may authorize home-to-work use of the vehicle as a business use for
Peace Corps employees engaged in field work.” Written authorization is “required in
advance of use. The country director is the authorizing official for post employees….”

Staff used Peace Corps vehicles for home-to-office use. However, the written
authorization was sometimes issued one or more months after, rather than in advance of,
use. The authorization forms, when issued, indicated that oral authorizations by the
country director or administrative officer were given prior to vehicle use.


                 We recommend:

                 G.2.1 That, in the future, the country director issue written
                       authorizations for approved home-to-office use of
                       Peace Corps vehicles prior to the vehicles’ use and
                       maintain these in the post’s files.


3. The post did not affix “In Case of Accident” cards in a prominent location in its
vehicles.

PCM section 524.2 states: “Staff members should affix to each Peace Corps
vehicle a card instructing occupants what to do in case of an accident.”

We noted that cards providing such information were kept in the glove compartments and
not visible to the occupants. The motor pool specialist told us that he had tried to affix
these to the dashboards using tape but that the cards peeled off in the heat. He told us
that he would use adhesive to affix these.

The card is important to let passengers know what to do in case of an accident,
particularly if the driver is unavailable or incapacitated.


                 We recommend:

                 G.3.1 That the post affix “In Case of Accident” cards to
                       each vehicle in a place that is visible to the
                       occupants.




Final Audit Report: Peace Corps/Suriname                                                 16
H. PERSONNEL MANAGEMENT

1. PSCs were not always paid on time.

OFMH section 37.2.8 states: “Payments on long-term contracts (over six months) will be
made bi-weekly via HRMS [Human Resources Management System] in Odyssey.”

The post’s PSCs were not always paid on time. An analysis by the financial assistant
showed that PSCs received their bi-weekly pay late on four occasions in 2009. The
payments were initiated in headquarters, and the post deposited the checks upon their
receipt.

The administrative officer told us that she would investigate the reason for the late
checks, as well as pursuing with headquarters and the financial service center the
possibility of paying its PSCs by electronic funds transfer (EFT).


                 We recommend:

                 H.1.1 That the administrative officer determine, in
                       conjunction with headquarters, the reason for the
                       late receipt of PSC salary checks and take the
                       required remedial actions.

                 H.1.2 That the administrative officer determine if the
                       payment of PSCs by EFT is possible and, if so,
                       implement this payment vehicle.


2. The post’s time and attendance records and related control procedures were
deficient.

PCM sections 742.6.1 and 630.4.6 provide guidance in proper time and attendance
procedure.

We found deficiencies in the post’s biweekly timesheets, the official time and attendance
records, and related procedures, as follows:

•   The official time and attendance records, maintained on Form PC-57, as well as the
    related timesheets contained discrepancies and were sometimes missing supporting
    documentation.

•   Several PSCs’ ending balances of annual and sick leave were not accurately carried
    forward to the following year in the official time and attendance records. The
    balances were corrected by the timekeeper upon our bringing this issue to her
    attention.


Final Audit Report: Peace Corps/Suriname                                                 17
•   The post’s compensatory time policy stated that a maximum of 24 hours may be
    carried over, with an exception for pre-service training. However, some staff had
    balances exceeding the 24-hour maximum.

•   Supervisors did not review the official time and attendance records periodically.

•   Timesheets were not always submitted timely. For example, the timesheets of one
    PSC selected by us for review were late by more than seven calendar days for eight of
    the 19 pay periods through September 29, 2009.

•   Some timesheets did not show the extra hours worked that resulted in compensatory
    time.

The requirement for accurate time and attendance records makes their conscientious
preparation and timely review essential.


                 We recommend:

                 H.2.1 That the timekeeper verify that the timesheets are
                       submitted timely and prepared accurately, and
                       follow up with staff members as needed.

                 H.2.2 That the administrative officer instruct staff on the
                       proper recording of leave, holidays, and
                       compensatory time on the timesheets, and on
                       documentation, such as leave and compensatory
                       time forms, which must be attached in support of
                       the timesheets.

                 H.2.3 That supervisors perform careful and conscientious
                       reviews of the timesheets of their staff and follow
                       up immediately to correct discrepancies.

                 H.2.4 That the administrative officer remind staff of the
                       post’s compensatory time policy, including the
                       maximum hours that may be carried over, and
                       monitor the staff’s compliance.

                 H.2.5 That the timekeeper review the official time and
                       attendance records for the last two years and verify
                       that they reflect the actual hours worked and actual
                       leave taken as indicated on the timesheets.




Final Audit Report: Peace Corps/Suriname                                                18
                 H.2.6 That supervisors review the official time and
                       attendance records in a regular, periodic manner,
                       and sign and date the records signifying review.


I. TRAVEL MANAGEMENT

1. Staff did not always submit their international travel vouchers within five days after
the trip’s completion.

PCM section 812.18.10 states that travel vouchers “must be completed and submitted
within five working days after completion of travel.”

Of the five international travel vouchers we selected for review, four were signed by the
traveler later than five working days after the travel completion date. The four late travel
vouchers were submitted between two and five weeks after completion of the related
trips.

Prompt submission of travel vouchers permits their timely processing, clearing of any
cash advances, and reimbursement to the travelers.


                 We recommend:

                 I.1.1    That the administrative officer enforce the five
                          working day submission requirement for travel
                          vouchers and monitor the staff’s compliance.


2. The international travel vouchers contained discrepancies.

PCM section 812 provides policy and guidance on the proper completion of travel
vouchers.

For one international travel voucher, the date signed as reviewed was earlier than the date
signed by the traveler. For another voucher, there was no approving official’s signature.
We also noted discrepancies relating to per diem rates. In addition, one travel voucher
was missing the travel authorization number and the dates of travel. Another travel
voucher had expenses for taxi and check-cashing in the wrong column.


                 We recommend:

                 I.2.1    That the administrative officer hold a meeting or
                          seminar for all staff on proper and timely
                          completion of travel vouchers.



Final Audit Report: Peace Corps/Suriname                                                  19
                 I.2.2    That.the country director instruct post management
                          staff to exercise care in adequately performing
                          reviews of travel vouchers.


J. FILES MANAGEMENT

1. The post’s files contained old and outdated documents.

PCM section 892.6.6 states: “Offices shall ensure that permanent records are preserved
and that records that are no longer of use to the Agency are properly disposed of or
retired…. Retention standards for Peace Corps records are contained in the Records
Management Handbook.”

The post’s files contained old and obsolete administrative, program, and Volunteer
documents dating back to the inception of the Suriname program in 1995. Administrative
files were stored in the warehouse in cardboard boxes and 21 metal file drawers. The
documents included contracts, contractor files, vouchers, construction estimates, project
reports, and Volunteer files with names on the folders and personal data inside. One
wooden cabinet with five shelves contained program-related records, including pre-
service and in-service training documents, homestay information, and training of trainers
documentation, going back to the year 2000.

The post’s narrative to its fiscal year 2010-2012 Integrated Planning and Budgeting
System (IPBS) report specified a number of objectives, including “Dispose of old records
according to established procedures and timetables.”


                 We recommend:

                 J.1.1    That the post review its old administrative,
                          program, and Volunteer files and dispose of them in
                          accordance with agency policy.

                 J.1.2    That the post develop an internal procedure for
                          regular, periodic reviews and disposition of its files.




Final Audit Report: Peace Corps/Suriname                                              20
K. PROCUREMENT

1. Some post lease documents were incomplete or inccurate.

The post’s lease files did not comply with the standards and requirements of PCM section
733, as follows:

•   Certificates of acceptance were not always completed.

•   The sentence “This constitutes the final option period” was erroneously included in
    the text of three option renewal notices when it was not the final option period.

•   One residential lease incorrectly specified a lease period of four years and 11 ¼
    months plus “four further one year option periods.” Leases should be for a maximum
    of five years including option periods.

•   Residential leases of the U.S. direct hires, which were denominated in U.S. dollars,
    did not have the required approvals of the Office of the Chief Financial Officer and
    the Chief of Mission. The post obtained the approvals during the course of the audit.


                 We recommend:

                 K.1.1 That, on an ongoing basis, the post obtain
                       certificates of acceptance for all leases.

                 K.1.2 That the post exercise care in its option renewal
                       documents and, in particular, not include the text
                       “This constitutes the final option period” when that
                       is not the case.

                 K.1.3 That the post accurately reflect the terms of the
                       leases in the related lease documents.

                 K.1.4 That, on an ongoing basis, the post obtain approval
                       in advance from the Office of the Chief Financial
                       Officer and the Chief of Mission for leases
                       denominated in U.S. dollars.


2. The post’s personal services contractor (PSC) files were missing required
documents.

The post’s PSC files did not fully comply with the requirements of PCM section 743, as
follows:



Final Audit Report: Peace Corps/Suriname                                                  21
•   Some statements of work were either missing from the PSC files or placed loose
    rather than integrated with or attached to the related PSC contracts.

•   One staff member’s security clearance update was not located. The financial assistant
    was uncertain if it had been misfiled or not completed.

•   A new contract contained only the first two pages rather than the complete contract
    and the statement of work.

•   Office of Medical Services (OMS) approval for the contract of the Peace Corps
    Medical Officer (PCMO), along with his appraisals for 2006, 2007, and 2008, were
    not on file. The country director told us that these were sent to headquarters.

As a result, complete and accurate documentation was not available for proper contract
administration.


                 We recommend:

                 K.2.1 That the post prepare statements of work (SOWs)
                       for all staff and that the SOWs be integrated with or
                       attached to the related PSC contracts and included
                       in the PSCs’ files.

                 K.2.2 That the post verify that it has all security clearance
                       updates and request those needed from the Regional
                       Security Officer.

                 K.2.3 That the post include the complete new contract
                       including all contract pages and the statement of
                       work in the PSC’s file.

                 K.2.4 That the post maintain copies of OMS approval of
                       the PCMO’s contract and the PCMO’s performance
                       appraisals.


L. MEDICAL SUPPLIES

1. The post did not implement the agency’s medical supplies inventory policy.

PCM section 734 specifies the post’s responsibilities and requirements relating to
medical supplies inventory. The post did not implement this policy, which was issued in
November 2008, as follows:




Final Audit Report: Peace Corps/Suriname                                                  22
•   Contrary to policy, the PCMO maintained the inventory records for all medical
    supplies.

•   The medical assistant, rather than a person from outside the medical unit, performed
    the physical inventory of specially designated drugs, which the PCMO told us were
    those in the locked cabinet in his office. However, he had not identified the specially
    designated drugs in the inventory records. He told us he thought that guidance would
    be provided by OMS.

•   The country director, who performed the inventory verifications of controlled
    substances, did not perform a verification for one quarter in 2009, between April 13,
    2009 and August 28, 2009.

•   The medical assistant, rather than a designated acceptance point clerk from outside
    the medical unit, opened, in the presence of the PCMO, medical supplies received at
    the post.

•   The PCMO did not use the required dispensed medical supplies form.

•   The country director did not submit, on an annual basis, the medical inventory control
    log, due April 15, 2009. The log enumerates inventories of controlled substances and
    specially designated medical supplies as of March 31.


                 We recommend:

                 L.1.1 That the post implement the agency’s policy on
                       medical supplies, PCM section 734.


2. Discrepances existed between the medical supplies inventory and the related records.

PCM section 734.3.5 states: “Assurance that effective controls are in place is achieved
through…accurate record keeping….”

We noted discrepancies between the medical supplies on hand and the related records.
For example:

•   The expiration dates of three containers of a controlled substance per the records
    differed by one month from the container labels. We also noted expiration date
    differences for medical supplies other than controlled substances.

•   There were quantity differences between the records and the actual inventory on
    hand. For example: units on hand 200, per the records 300; boxes on hand 27, per the
    records 3; boxes on hand 39, per the records 26.



Final Audit Report: Peace Corps/Suriname                                                  23
•   One issuance of 12 boxes was not posted to the medical supplies records.

Accuracy in the recording of medical supplies and care in the updating of the inventory
records are essential in detecting and preventing waste, fraud, and abuse.


                 We recommend:

                 L.2.1 That the post conduct a complete physical inventory
                       of medical supplies in accordance with PCM
                       section 734 and update the inventory records
                       accordingly.


3. The tabs on the Volunteers’ medical folders contained their social security numbers.

“Peace Corps Plan to Reduce Use of Personally Identifable Information and Social
Security Numbers,” dated September 7, 2007, states: “Peace Corps’ policy is to eliminate
the unnecessary collection and use of SSNs.” Further: “In almost all cases, the Volunteer
Identification Number could take the place of the SSN for Volunteers. There are only a
few instances where SSNs are required, and none of these is overseas.”

The Volunteer medical file tabs included their SSNs. The tabs were labels had been sent
to the post by the Office of Medical Services. The elimination of SSNs on post medical
records would help protect against identity theft and unauthorized access to Volunteers’
personal information.


                 We recommend:

                 L.3.1 That the post delete the Volunteers’ Social Security
                       numbers from the tabs of the Volunteer medical
                       folders.

                 L.3.2 That the Office of Medical Services substitute the
                       Volunteer identification number for the Social
                       Security number on its labels sent to posts, and
                       instruct medical officers to use the Volunteer
                       identification number.




Final Audit Report: Peace Corps/Suriname                                                  24
                        QUESTIONED COSTS AND
                     FUNDS TO BE PUT TO BETTER USE

We identified certain questioned costs and funds to be put to better use during the course
of the audit. They are discussed in the accompanying audit report and enumerated below
along with the recommendation number in the report. (Amounts are in U.S. dollars or
U.S. dollar equivalents of Suriname dollars at the rate of $1 equals 2.8 Suriname dollars.)

                                           Questioned Costs

Recommendation
                                                 Description                       Amount
    number
                       Emergency payments made to Volunteers due to the late
                                                                                  $1,732.62
       C.1.1           arrival of the living allowance check, not deducted from
                       subsequent living allowance payments.



                               Funds to be Put to Better Use

Recommendation
                                                 Description                       Amount
    number
                      Volunteer hotel and per diem charges in the capital
       C.1.2          resulting from the late arrival of the settling-in and living $1,785.00
                      allowance checks.
                      Billing and collection of personal phone calls made by
       E.1.1                                                                            *
                      staff.
* Amount unable to be determined, as the post did not track personal phone calls in order
to bill and collect from staff.




Final Audit Report: Peace Corps/Suriname                                                  25
                                      POST STAFFING

At the time of our visit, the post had 21 staff positions: three U.S. direct hires, three
foreign service nationals, and 15 personal services contractors.

We interviewed 10 staff members, including the three U.S. direct hire employees. All
staff interviewed told us that they very much enjoyed working at the Peace Corps. They
stated that, in particular, they enjoyed interacting with and supporting the Volunteers.

Volunteers told us that they appreciated the welcoming attitude of the Peace Corps staff
when the Volunteers visited the office, and the interest shown by the staff in their success
and well-being. Volunteers also stated that they had received effective ongoing support
from the administrative unit and specifically praised the availability and helpful attitude
of the administrative officer and the administrative staff.


                                     PC/Suriname Positions
                                     Position                           Status
             Country Director                                           USDH
             Program and Training Officer                               USDH
             Administrative Officer                                     USDH
             Safety and Security Officer                                 PSC
             Program Manager/Health                                      FSN
             Program Manager/Business                                    PSC
             Training Manager                                            PSC
             Financial Assistant                                         FSN
             Cashier                                                     FSN
             Information Technology Specialist                           PSC
             General Services Assistant                                  PSC
             Motorpool Specialist                                        PSC
             Programming and Training Specialist/Health                  PSC
             Programming and Training Specialist/Business                PSC
             Programming and Training Assistant                          PSC
             Language Coordinator                                        PSC
             Housing Coordinator/Driver                                  PSC
             Peace Corps Medical Contractor                              PSC
             Medical Assistant                                           PSC
             Secretary/Receptionist                                      PSC
             Cleaner/Back-up Receptionist                                PSC




Final Audit Report: Peace Corps/Suriname                                                    26
                         LIST OF RECOMMENDATIONS

We recommend:

A.1.1 That the country director strengthen the post’s internal control environment,
      activities, and monitoring in a manner that will safeguard assets and prevent and
      detect waste, fraud, and abuse.

A.1.2 That the country director describe the actions taken to achieve the control
      standards described in A.1 in a report to the regional director and the agency’s
      chief compliance officer.

B.1.1 That the country director ensure that imprest fund verifications are performed
      quarterly by the country director and in other months by the administrative
      officer.

B.1.2 That the country director and the administrative officer vary the timing each
      month of their imprest fund verifications.

B.1.3 That the country director and the administrative officer perform imprest fund
      verifications with a cash count and review of supporting documents for all
      balances.

B.2.1 That the cashier change the imprest fund safe combination annually, when there
      is a change in cashiers, or whenever the combination becomes known to a person
      other than the cashier.

B.3.1 That post staff clear their interim cash advances within three working days.

B.3.2 That the cashier monitor the status of interim advances and notify the
      administrative officer if advances are not being cleared within three days.

B.3.3 That the administrative officer monitor the status of outstanding interim advances
      in order to ensure that they are cleared within the required time period.

C.1.1 That the post request living and settling-in allowance checks with sufficient lead
      time to permit the allowances’ timely payment to Volunteers.

C.1.2 That the post, in consultation with the region, perform a review to identify
      bottlenecks to receiving allowance checks on time and take action to resolve
      these.




Final Audit Report: Peace Corps/Suriname                                                 27
C.1.3 That the administrative officer, in conjunction with headquarters and the
      financial service center, determine if allowance payments may be made by EFT
      and, if so, implement this payment vehicle.

C.2.1 That the post conduct complete settling-in surveys and conclude as to the
      allowance’s adequacy.

C.2.2 That the post conduct independent price surveys in conjunction with settling-in
      allowance surveys to corroborate the results of the settling-in surveys.

C.3.1 That the post execute a memorandum of agreement with the bank handling
      Volunteer living allowances.

D.1.1 That the billing officer bill staff for personal phone charges.

D.1.2 That the country director determine an amount under which it would not be cost-
      effective to bill staff for personal phone usage.

D.2.1 That the billings officer maintain copies of bills of collection and general receipts
      in her files.

D.3.1 That the billings officer clearly state the nature of the billings on the bills of
      collections.

D.3.2 That the administrative officer review the BOC log on a regular, periodic basis
      and follow-up unusual or untimely billings or those outstanding for an extended
      period of time.

E.1.1 That the post record obligations at the time the commitment is made or debt is
      determined.

E.1.2 That the administrative officer review the status of obligations on a regular basis
      and verify that obligations have been correctly and timely recorded.

F.1.1 That the post maintain an accurate property inventory database including
      updating the database on a regular basis for changes.

F.1.2 That the property control officer reconcile the database with changes to ensure
      they are recorded before the physical inventory is conducted.

F.1.3 That the administrative officer reconcile the inventory against receiving reports
      and requisition forms at least quarterly.

F.1.4 That different staff members maintain the property inventory database and
      perform the physical inventory.




Final Audit Report: Peace Corps/Suriname                                                   28
F.1.5 That the post provide sufficiently detailed information relating to property
      disposal to permit the updating of the property inventory database.

F.2.1 That the post conduct a complete physical inventory and ensure that the property
      inventory database reflects the current status, location, and condition of all items
      including the post’s IT equipment.

F.2.2 That the post identify items with duplicate inventory tags, incorrect tags, or no
      tags and take corrective action as needed.

F.2.3 That the post develop internal policies and procedures which will provide for
      ongoing and accurate recordkeeping, effective controls, and managerial oversight
      over property inventory.

F.3.1 That the post issue custody receipts for property held in the residences of the U.S.
      direct hire staff and place the custody receipts in the administrative files.

F.3.2 That the post issue custody receipts for property provided to Volunteers for use
      during their Peace Corps service and establish an effective control system to
      track the property.

G.1.1 That the required staff members review, initial, and date the vehicle usage logs
      weekly.

G.1.2 That staff record all usage of post vehicles in the vehicle usage logs and fully
      complete the required information.

G.2.1 That, in the future, the country director issue written authorizations for approved
      home-to-office use of Peace Corps vehicles prior to the vehicles’ use and
      maintain these in the post’s files.

G.3.1 That the post affix “In Case of Accident” cards to each vehicle in a place that is
      visible to the occupants.

H.1.1 That the administrative officer determine, in conjunction with headquarters, the
      reason for the late receipt of PSC salary checks and take the required remedial
      actions.

H.1.2 That the administrative officer determine if the payment of PSCs by EFT is
      possible and, if so, implement this payment vehicle.

H.2.1 That the timekeeper verify that the timesheets are submitted timely and prepared
      accurately, and follow up with staff members as needed.




Final Audit Report: Peace Corps/Suriname                                                   29
H.2.2 That the administrative officer instruct staff on the proper recording of leave,
      holidays, and compensatory time on the timesheets, and on documentation, such
      as leave and compensatory time forms, which must be attached in support of the
      timesheets.

H.2.3 That supervisors perform careful and conscientious reviews of the timesheets of
      their staff and follow up immediately to correct discrepancies.

H.2.4 That the administrative officer remind staff of the post’s compensatory time
      policy, including the maximum hours that may be carried over, and monitor the
      staff’s compliance.

H.2.5 That the timekeeper review the official time and attendance records for the last
      two years and verify that they reflect the actual hours worked and actual leave
      taken as indicated on the timesheets.

H.2.6 That supervisors review the official time and attendance records in a regular,
      periodic manner, and sign and date the records signifying review.

I.1.1   That the administrative officer enforce the five working day submission
        requirement for travel vouchers and monitor the staff’s compliance.

I.2.1   That the administrative officer hold a meeting or seminar for all staff on proper
        and timely completion of travel vouchers.

I.2.2   That.the country director instruct post management staff to exercise care in
        adequately performing reviews of travel vouchers.

J.1.1   That the post review its old administrative, program, and Volunteer files and
        dispose of them in accordance with agency policy.

J.1.2   That the post develop an internal procedure for regular, periodic reviews and
        disposition of its files.

K.1.1 That, on an ongoing basis, the post obtain certificates of acceptance for all leases.

K.1.2 That the post exercise care in its option renewal documents and, in particular, not
      include the text “This constitutes the final option period” when that is not the
      case.

K.1.3 That the post accurately reflect the terms of the leases in the related lease
      documents.

K.1.4 That, on an ongoing basis, the post obtain approval in advance from the Office of
      the Chief Financial Officer and the Chief of Mission for leases denominated in
      U.S. dollars.



Final Audit Report: Peace Corps/Suriname                                                    30
K.2.1 That the post prepare statements of work (SOWs) for all staff and that the SOWs
      be integrated with or attached to the related PSC contracts and included in the
      PSCs’ files.

K.2.2 That the post verify that it has all security clearance updates and request those
      needed from the Regional Security Officer.

K.2.3 That the post include the complete new contract including all contract pages and
      the statement of work in the PSC’s file.

K.2.4 That the post maintain copies of OMS approval of the PCMO’s contract and the
      PCMO’s performance appraisals.

L.1.1 That the post implement the agency’s policy on medical supplies, PCM section
      734.

L.2.1 That the post conduct a complete physical inventory of medical supplies in
      accordance with PCM section 734 and update the inventory records accordingly.

L.3.1 That the post delete the Volunteers’ Social Security numbers from the tabs of the
      Volunteer medical folders.

L.3.2 That the Office of Medical Services substitute the Volunteer identification
      number for the Social Security number on its labels sent to posts, and instruct
      medical officers to use the Volunteer identification number.




Final Audit Report: Peace Corps/Suriname                                                  31
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Suriname covered fiscal years 2008 and 2009. While at the
post, we interviewed key staff including the country director, the administrative officer,
the program and training officer, the safety and security coordinator, staff responsible for
administrative support, and the medical officer. We also interviewed Volunteers to
obtain their views on the effectiveness of the post’s administrative and financial systems
in supporting them. At the end of the audit, we briefed the country director and
administrative officer. At headquarters, we conducted a general briefing for regional
staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps manual, Overseas Financial Management Handbook, and current Peace Corps
policies and initiatives.
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
APPENDIX C

                    MANAGEMENT’S RESPONSE TO
                     THE PRELIMINARY REPORT

Management concurred with all 61 recommendations made in our report. As a result of
management’s response and supporting documentation, we closed 60 recommendations.
One recommendation remains open pending confirmation from the chief compliance
officer that the following has been received:

       •   For recommendation C.3.1: documentation that the post has executed a
           memorandum of agreement with its bank.

In their response, management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when it is warranted, we may conduct a follow-
up review to confirm that action has been taken and to evaluate the impact.
APPENDIX D

            AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Senior auditor Steven Kaffen performed the audit of PC/Suriname.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please email Steven Kaffen, Acting Assistant Inspector General for Audit, at
skaffen@peacecorps.gov, or call him at 202.692.2905.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
